Midtown Building
1301 Atlantic Avenue
Suite 400
Atlantic City, NJ 08401-7212
Tel (609) 348-4515 Fax (609) 348-6834
www.foxrothschild.com

WILLIAM M. HONAN
Direct No: 609.572.2218
Email: BHonan@FoxRothschild.com

March 31, 2021

VIA FEDERAL EXPRESS OVERNIGHT
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Stephen J. Simoni, Petitioner, v. Jersey Shore University Medical Center, et al.,
Respondents, No. 20-1252

Dear Mr. Harris:
This firm represents Respondents Jersey Shore University Medical Center and Hackensack
Meridian Health in connection with the above-referenced petition. Respondents intend to file a
brief in opposition to the Petition in this case, and Respondents’ brief is due April 9, 2021.
Pursuant to your February 2020 Memorandum Concerning the Deadlines for Cert Stage Pleadings
and the Scheduling of Cases for Conference and Rule 30.4, please accept this letter motion request
for a 30-day extension to Respondents’ deadline to file a brief in opposition to the Petition.
Since the Petition was docketed, both myself and my associate who is assigned to this matter,
Brian J. McGinnis, have had to devote significant time to trial preparation and summary judgment
proceedings in two separate, unrelated cases in the New Jersey state courts. A 30-day extension
of the opposition brief deadline will ensure Respondents have adequate time to present a complete
and proper opposition to the Petition for the Court’s consideration.

March 31, 2021
Page 2
I appreciate your consideration of this matter.

Respectfully submitted,

William M. Honan
WMH:bjm
cc:

Stephen J. Simoni, Esq., Attorney for Petitioner (via email)

